No. 20-1026

In the Supreme Court of the United States
EAGLE TRUST FUND, JOHN F. SCHLAFLY, AND EAGLE FORUM
EDUCATION & LEGAL DEFENSE FUND,
Petitioners,
v.
UNITED STATES POSTAL SERVICE AND LOUIS DEJOY,
POSTMASTER GENERAL, IN HIS OFFICIAL CAPACITY,
Respondents.
CERTIFICATE OF SERVICE
The undersigned certifies that, on this 23rd day of February 2021, in addition
to filing the accompanying supplemental brief via the Court’s electronic filing system,
one true and correct copy of the foregoing document was served by U.S. Priority Mail,
postage pre-paid, on the following counsel:
Elizabeth B. Prelogar
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
supremectbriefs@usdoj.gov
Counsel for Respondents
In addition, on this 23rd day of February 2021, the following email addresses
have also been served electronically:
SupremeCtBriefs@USDOJ.gov
Pursuant to this Court’s order dated April 15, 2020, the undersigned further
certifies that, on this 23rd day of February 2021, an original paper copy was served
on the Court – together with one unbound copy – by Federal Express, next-day

delivery and that petitioners will expeditiously file booklet-from copies of the petition
and appendix if so requested.
Executed February 23, 2021,
Lawrence J. Joseph
________________________________
Lawrence J. Joseph

